                               CLOSEOUT FOR M95030007



        On ~ a r ~ 1995,
                   h m Dr.                                    program director in t h e m
                                      hP
                                       o
                                       ef-prR
                                            ..                            1-1
                                                                Division of
                       of the -Directoratefor
  OIG of a telephone call she had receiv
  complainant, a faculty member in the Beparit
  served as a ad hoc reviewer for proposal
l             .            "The proposal's principal investigator was Dr.
  and a faculty member in the Department of-                  at the U n i v e r s i t y In the
  telephone conversation, the complainant allleged that the subject's proposal contained text
  plagiarized 6om an unpublished manuscript the complainant had co-authored with his graduate
  assistant and that one proposed study described already completed research.

         The complainant told OIG that he had submitted the manuscript for publication, but it had
 been rejected. He had shown the manuscript to the subject who had made suggestions for
 improvement. This original manuscript was the foundation for an on-going collaboration between
 the subject and the complainant. The complainant said that he considered the manuscript "dead"
 and that he and the subject were developing a new manuscript that they intended to publish. This
 new manuscript was a follow-on to the original manuscript and corrected some procedural errors
 in the experiments reported in the original manuscript. The complainant said that he had
 participated in the design of the study he alleged was already completed, but said he had neither
 participated in the collection of data nor seen any of the data. He merely understood that it was
 completed. The complainant described a number of serious problems that he and the subject had
 working together which led to a poor working relationship. The two were working
 collaboratively and separately in a very specific research area and were in the unusual position of
 both collaborating and competing with each other.

        OIG compared the complainant's manuscript with the subject's proposal and found
 approximately two pages of text in the introduction and six references in the bibliography that had
 been copied fiom the manuscript. The text was not offset fiom the proposal text and did not
 contain a citation to the complainant's manuscript.

         In response to OIG's request for information about the copying, the subject explained that
 he and the complainant had been collaborating for some time. They had completed the follow-on
 study, and the complainant was responsible for writing the new manuscript. He had not seen the
 new manuscript but he had asked, and anticipated, that the text he copied would appear in that
 manuscript. He said the complainant had not met the deadline he had given for completing the
 draft of the new manuscript. The complainant was presenting a talk on the new manuscript's
 research at an up-coming regional scientific meeting. The subject said that he felt he was entitled
 to use the text 6om the original manuscript because he would be an author on the new
 manuscript. OIG confirmed the subject's information with the subject's two graduate students,
 one of whom was the co-author on the original manuscript.
                                        Page 1 of 2                               M95-07
                              CLOSEOW FOR M95030007

       The complainant con£irmed that he was responsible for writing the new manuscript, that
the subject had requested that the text in question appear in the new manuscript, and that he had
not begun writing it yet. He confirmed that he was giving a presentation based on their
collaborative work at a regional conference in one week.

       OIG concluded that the subject should have offset the copied text and cited the
complainant's original manuscript as its source because the new manuscript did not yet exist. At
OIG's request, the subject submitted proposal gages that offset the text copied fiom the original
manuscript. He included a reference to the original manuscript in his proposal's bibliography.
The proposal was amended to include the corrected pages.

        In response to OIG's questions about the allegedly completed study described in his
proposal, the subject said that he had completed a pilot project for that study. He explained that
that research was not dependent on NSF finds, and progress on the study had continued after he
submitted his proposal. He considered his collected data "preliminary," and has now concluded
that the study has a findamental design flaw. The study was not essential to the work proposed.
Me said it was his understanding that it improved his proposal to include discussions of
preliminary data. It is a tradition within the scientific community to describe preliminary results in
research proposals, and NSF program officers encourage PIS to discuss preliminary research in
proposal submissions. The subject's discussion of a study that was the focus of a pilot project does
not deviate fiom accepted practices and is not, in this case, an issue of misconduct in science.

       OIG concluded that the subject should have offset the text he copied from the
complainant's paper, but that his realistic expectation that this text would appear in a manuscript
he was co-authoring with the complainant mitigated the seriousness of his action. In other               :
circumstances these actions might have led to further inquiry and a possible investigation. OIG
concluded that the subject's corrections to his proposal appropriately remedied the copying
without offset or attribution. OIG concluded that the subject's discussion of his pilot project in his
proposal was appropriate and not an issue of misconduct in science.

       This inquby is closed and no firther action will be taken.




cc:    Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                        Page 2 of 2
